                                                    U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                          OFFICE OF THE fNSPECTOR GENERAL
                                                                           OFFICE OF AUDITS




Final Audit Report
Subject:



      Audit of the Federal Employees Health Benefits

     Program Operations of Kaiser Foundation Health

                       Plan of Ohio
                                                                                                     'c.




                                         Report No. lC-64-00-09-003


                                          Date:        December 17,               2009




                                                      -- CAtJTION-­
This audit report has been distrtbuted to Federal offidals who are responsible for the adminishation of the audited progl"am. This
audit report lliay contain proprietary data which is protected by Federal law (18 ll.S.C. 1905). Therefore, while this audit report is
available under the Freedom of Information Act and made available 10 Ihe public on the OIG webpage, caution needs to be exercised
before releasing the report to the general public as it may contain proprietary information thaI was redacted frorn the publicly
distributed copy.
                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                             Washington, DC 20415


   Office of the
Inspector Genera1




                                             AUDIT REPORT




                                  Federal Employees Health Benefits Program

                               Community-Rated Health Maintenance Organization

                                    Kaiser Foundation Health Plan of Ohio

                                    Contract Number 1182 - Plan Code 64

                                               Cleveland, Ohio




                     Report No. 1C-64-00-09-003                      Da~:   December 17. 2009




                                                                     Michael R. Esser
                                                                     Assistant Inspector General
                                                                       for Audits




       www.opm.goY                                                                        www.usajobs.goY
                           UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                 Washington, DC 20415



   Office of the
Inspector General




                                        EXECUTIVE SUMMARY





                                 Federal Employees Health Benefits Program

                              Community-Rated Health Maintenance Organization

                                   Kaiser Foundation Health Plan of Ohio

                                    Contract Number 1182 - Plan Code 64

                                              Cleveland, Ohio




                    Report No. 1C-64-00-09-003                       Date: December 17, 2009

        The Office of the Inspector General performed an audit of the Federal Employees Health Benefits
        Program (FEHBP) operations at Kaiser Foundation Health Plan of Ohio (Plan). The audit
        covered contract years 2006 through 2009 and was conducted at the Plan's office in Cleveland,
        Ohio. The audit showed that the Plan's rating of the FEHBP was developed in accordance with
        applicable laws, regulations, and the Office of Personnel Management's rating instructions for
        the years audited.




        www.opm.gov                                                                        www.usajobs.gov
                            CONTENTS



                                              Page

   EXECUTIVE SUMMARY                      '     i


 1. INTRODUCTION AND BACKGROUND                1


II. OBJECTIVES, SCOPE, AND METHODOLOGY.        3


III. RESULTS OF A·UDIT                         5


IV. MAJOR CONTRlBUTORS TO THIS REPORT          6

                     I. INTRODUCTION AND BACKGROUND


Introduction

We completed an audit of the Federal Employees Health Benefits Program (FEHBP) operations
at Kaiser Foundation Health Plan of Ohio (Plan). The audit covered contract years 2006 through
2009 and was conducted at the Plan's office in Cleveland, Ohio. The audit was conducted
pursuant to the provisions of Contract CS 1182; 5 U.S.c. Chapter 89; and 5 Code of Federal
Regulations (CFR) Chapter I, Part 890. The audit was performed by the Office of Personnel
Management's (OPM) Office of the Inspector General (DIG), as established by the Inspector
General Act of 1978, as amended.

Background

The FEHBP was established by the Federal Employees Health Benefits Act (Public Law 86-382),
enacted on September 28, 1959. The FEHBP was created to provide health insurance benefits
for federal employees, annuitants, and dependents. The FEHBP is administered by OPM's
Center for Retirement and Insurance Services. The provisions of the Federal Employees Health
Benefits Act are implemented by OPM through regulations codified in Chapter 1, Part 890 of
Title 5, CFR. Health insurance coverage is provided through contracts with health insurance
carriers who provide service benefits, indemnity benefits, or comprehensive medical services.

Community-rated carriers participating in the FEHBP are subject to various federal, state and
local laws, regulations, and ordinances. While most carriers are subject to state jurisdiction,
many are further subject to the Health Maintenance Organization Act of 1973 (Public Law 93­
222), as amended (i.e., many community-rated carriers are federally qualified). In addition,
participation in the FEHBP subjects the carriers to the Federal Employees Health Benefits Act
and implementing regulations promulgated by OPM.

The FEHBP should pay a market price rate,                    FEHBP ContractsfMembers
which is defined as the best rate offered to                        March 31

either of the two groups closest in size to          9,000
the FEHBP. In contracting with                       8,000
community-rated carriers, aPM relies on              7,000
carrier compliance with appropriate laws             6,000
and regulations and, consequently, does not          5,000
negotiate base rates. OPM negotiations               4,000
relate primarily to the level of coverage and        3,000
other unique features of the FEHBP.                  2,000
                                                     1,000
The chart to the right shows the number of               o                     2008    2009
                                                             2006     2007
FEHBP contracts and members reported by                      4,250    4.097    4,078   4,128
                                                _Contracts
the Plan as of March 31 for each contract
                                                o Members    8,512    7,933    7,753   7,712
year audited.
The Plan has participated in the FEHBP since 1985 and provides health benefits to FEHBP
members throughout the Cleveland and Akron metropolitan areas. The last audit conducted by
our office covered contract years 2002 through 2005. All questioned costs associated with that
audit have been resolved.

The preliminary results of this audit were discussed with Plan officials at an exit conference and
through subsequent correspondence. Since the audit showed that the Plan's rating of the FEHBP
was in accordance with applicable laws, regulations, and instructions, we did not issue a draft
report.




                                                2

                     II. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The primary objectives of the audit were to verify that the Plan offered market price rates to the
FEHBP and to verify that the loadings to the FEHBP rates were reasonable and equitable.
Additional tests were performed to determine whether the Plan was in compliance with the
provisions of the laws and regulations governing the FEHBP.



We conducted this performance audit in accordance                            FEHBP Premiums Paid to Plan
with generally accepted government auditing
standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate                        $40
evidence to provide a reasonable basis for our                             $35

findings and conclusions based on our audit                                $30
                                                                           $25
objectives. We believe that the evidence obtained
                                                                           $20
provides a reasonable basis for our findings and
                                                                           $15
conclusions based on our audit objectives.
                                                                           $10
                                                                            $5
This performance audit covered contract years 2006
                                                                            $0
through 2009. For 2006 through 2008, the FEHBP
paid approximately $106 million in premiums to the                   .Revenue
     l
Plan. The premiums paid for each contract year
audited are shown on the chart to the right.

OIG audits of community-rated carriers are designed to test carrier compliance with the FEHBP
contract, applicable laws and regulations, and OPM rate instructions. These audits are also
designed to provide reasonable assurance of detecting errors, irregularities, and illegal acts.

We obtained an understanding ofthe Plan's internal control structure, but we did not use this
information to determine the nature, timing, and extent of our audit procedures. However, the
audit included such tests of the Plan's rating system and such other auditing procedures
considered necessary under the circumstances. Our review of internal controls was limited to the
procedures the Plan has in place to ensure that:

           • The appropriate similarly sized subscriber groups (SSSG) were selected;

           •	 the rates charged to the FEHBP were the market price rates (i.e., equivalent to the best
              rate offered to SSSGs); and

           •	 the loadings to the FEHBP rates were reasonable and equitable.

I   The Subscription Income Report for 2009 was not available at the time this report was completed.
                                                           3
In conducting the audit, we relied to varying degrees on computer-generated billing, enrollment,
and claims data provided by the Plan. We did not verify the reliability of the data generated by
the various information systems involved. However, nothing came to our attention during our
audit testing utilizing the computer-generated data to cause us to doubt its reliability. We believe
that the available data was sufficient to achieve our audit objectives. Except as noted above, the
audit was conducted in accordance with generally accepted government auditing standards issued
by the Comptroller General of the United States.

The audit fieldwork was performed at the Plan's office in Cleveland, Ohio, during March 2009.
Additional audit work was completed at our offices in Washington, D. C. and Cranberry
Township, Pennsylvania.

Methodology

We examined the Plan's federal rate submissions and related documents as a basis for validating
the market price rates. Further, we examined claim payments to verify that the cost data used to
develop the FEHBP rates were accurate, complete, and valid. In addition, we examined the rate
development documentation and billings to other groups, such as the SSSGs, to determine if the
market price was actually charged to the FEHBP. Finally, we used the contract, the Federal
Employees Health Benefits Acquisition Regulations, and OPM's Rate Instructions to
Community-Rated Carriers to determine the propriety of the FEHBP premiums and the
reasonableness and acceptability of the Plan's rating system.

To gain an understanding of the internal controls in the Plan's rating system, we reviewed the
Plan's rating system's policies and procedures, interviewed appropriate Plan officials, and
performed other auditing procedures necessary to meet our audit objectives.




                                                 4

                                III. RESULTS OF AUDIT


Our audit showed that the Plan's rating of the FEHBP was in accordance with the applicable
laws, regulations, and OPM's rating instructions to carriers for contract years 2006 through 2009.
Consequently, the audit did not identify any questioned costs and no corrective action is
necessary.




                                                5

            IV. MAJOR CONTRIBUTORS TO THIS REPORT


Community-Rated Audits Group

                    Auditor-In-Charge

                     Auditor

                      Lead Auditor

                  Lead Auditor


                   Chief

                   Senior Team Leader




                                        6

